No.

In the

Supreme Court of the United States
HUPING HU, MAOXIN WU
Petitioners,
v.
DREW HIRSHFELD, Acting Under Secretary of Commerce for Intellectual
Property and Director of the United States Patent and Trademark Office,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court ofAppeals
for the Federal Circuit

CERTIFICATE OF SERVICE
I, Huping Hu, Petitioner, Pro Se, hereby certify that, on the

day of August, 2021,1

caused copies of the Petition for Writ of Certiorari in the above referenced case to be served by
U.S. Priority Mail, postage prepaid, upon counsels addressed as follows:
Solicitor General of the United States,
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Thomas W. Krause
Farheena Yasmeen Rasheed
Michael S. Forman
Office of the Solicitor
United States Patent & Trademark Office
Mail Stop 8
P.O. Box 1450
. Alexandria, Virginia 22313-1450
1

thomas.krause@uspto.gov
farheena.rasheed@uspto ;gov
michael.forman@uspto.gov
Additionally, an electronic version was transmitted to the above-listed counsels at the
referenced email addresses.
I hereby certify that all parties required to be served have been served.
Pursuant to 28 U.S.C. ยง 1746,1 declare under penalty of perjury that the foregoing is true
and correct.

Executed on August /^, 2021.

Huping Hu
Petitioner, Pro Se
25 Lubber Street
Stony Brook, NY 11790
(631)678-1864
hupinghu@quantumbrain.org

2

